No. 20-748

In the Supreme Court of the United States
PHI AIR MEDICAL, LLC, PETITIONER,
v.
TEXAS MUTUAL INSURANCE COMPANY, ET AL.
CERTIFICATE OF SERVICE

I hereby certify that, in accordance with Supreme Court Rule 29 and this Court’s Order of
April 15, 2020, all parties required to be served have been served with the foregoing BRIEF
OF AIRBUS HELICOPTERS, INC. AS AMICUS CURIAE IN SUPPORT OF PETITIONER, via email,
this 31st day of December 2020. All parties consented to electronic service consistent with
this Court’s April 15 Order.
Paul D. Clement
Counsel of Record
George W. Hicks, Jr.
Michael D. Lieberman
Kirkland & Ellis LLP
1301 Pennsylvania Ave., NW
Washington, DC 20004
(202) 389-5000
paul.clement@kirkland.com
Craig T. Enoch
Amy L. Prueger
Enoch Kever PLLC
7600 N. Capital of Texas Hwy
Building B, Suite 200
Austin, TX 78730
Counsel for Petitioners

Matthew B. Baumgartner
Graves Dougherty Hearon & Moody PC
401 Congress Ave., Suite 2200
Austin, TX 78701-3790
(512) 480-5603
mbaumgartner@gdhm.com
James M. Loughlin
Stone Loughlin & Swanson, LLP
P.O. Box 30111
Austin, TX 78755
(512) 343-1300
jloughlin@slsaustin.com
Lisa A. Bennett
Assistant Solicitor General
P.O. Box 12548 (MC 059)
Austin, TX 78711-2548
(512) 936-1700
lisa.bennett@oag.texas.gov
Counsel for Respondents

I declare under penalty of perjury the foregoing is true and correct. Executed on December
31, 2020.
/s Douglas A. Winthrop_____
Douglas A. Winthrop
Counsel of Record
ARNOLD & PORTER KAYE SCHOLER LLP
10th Floor
Three Embarcadero Center
San Francisco, CA 94111
(415) 471-3100
douglas.winthrop@arnoldporter.com
December 31, 2020

